                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A09070067                                                                        Page 1 of 1



                 A Massachusetts university1 notified us that it had completed an investigation of multiple
         allegations of falsification and fabrication against one of its professors. 2 The university concluded
         that the professor had committed multiple acts of research misconduct, a subset of which it identified
         as involving NSF funds. The university also identified NIH awards associated with the misconduct.

                  We coordinated our investigation with the U.S. Attorney's Office (USAO) in the university's
         district and the Department of Health and Human Services (HHS) OIG to assess potential criminal
         and civil violations. The USAO declined to pursue a criminal case with the understanding that there
         was a pending administrative proceeding.

                 To resolve the allegations involving the NSF awards, the professor has entered into a ',
         voluntary exclusion agreement (attached) with NSF based primarily on the university report. In the
         agreement, he acknowledges that NSF has sufficient evidence to make a research misconduct
         finding. In lieu of a formal finding, he has agreed voluntarily to exclude himself for 18 months to be
         followed by a period of 3 years of certifications and assurances. The professor has also agreed to
         submit detailed data management plans to NSF OIG during the three-year period for any NSF funded
         work in which he participates. Furthermore, within one year of executing the agreement, the
         professor must certify his completion of responsible conduct of research training.

                   Accordingly, this case is closed.




         2




NSF OIG Form 2 (11102)
                                    VOLUNTARY EXCLUSION AGREEMENT

This Voluntmy Exclusion Agreement (a~so referred to herein as the "'Agree1me11t")
into by and between     National Science Foundation ('"NSF")                      to fully resolve
issues associated with                     ("University'') findings                       against.
         as outlined in                           Committee Report ("Committee Report''), dated


L   Preamble

    1.                 began his appointment at the Un~an Assistant Professor in
                      was tenured as a Professor in t h e - Departmen-.

                                          v..,.......... by the Committee
                                                 to consider allegations




    4. The Investigating Committee considered in detail w h e t h e r - committed research
       misconduct in eight different projects. As part of its investigation, the Investigating Committee
       interviewed numerous witnesses, reviewed written materials, and viewed a number of research-
       related videos from data impounded from-laboratory and his computers.

    5. The Investigating Committee finalized its Committee Report i n - · As described in
        detail in the Report, the Investigating Committee found evidence in support of each of the eight
      . allegations, which involved both falsification and reckless handling of data. These findings are
        summarized in Section ll of this Agreement.

    6.                                          took a leave of absence from the University. He resigned his position
                      lnt11Arl!thi ..TT..I'T1U.. _
                                                               0




ll. The University's Findings of Research Misconduct

    7. For the ·purposes of this Agreement, we have summarized the eight findings of research
       misconduct made by the University.


                                                                                    also           other
         significant                             management.                               draft of the
         manuscript originally circulated to colleagues by -           claimed that 10 of 10 subjects in
         .22!:!!.f.arts
                     of an experiment responded as hypothesized. In the manuscript that was submitted 'to
         - · however, the results were changed to reflect that 9 of 10 subjects responded as
         ~d. Although- contended that he had recoded and/or reanalyzed the data,
         ~ (who also served as an author on the paper) had no recollection of such recoding or
         reanalysis. The University identified emails that suppo~ recollection. Additionally,
         the Investigating Committee found that some of the original material for this work could not be
VOLUNTARY EXCLUSION AGREEMENT BETWEEN NSF A~_ _ _ _ _J_a_o_u_ary..:..-2_0_13_


        found, and that~ responsible for the loss of these research records.~
        manuscript sub~ included an acknowledgement of funding from . . . . .
        Presidential Young Investigator award from NSF • • • • •

   9.




   10. ~3: -falsified the research record in connection with the
       --project carried out in -laboratory. Specifically,
       numerous data points in the original coding data set which was                 the coding
       protocol, and which strengthened support for his hypothesis. No manuscript was ever written up
       for publication.           ·

   11. Finding #4: In connection with t h e - project,- falsified the research record,
       data, and coding methodology in two experiments as described in an unpublished manuscript
       submitted in various forms to four journals. With respect to Experiment 1, the Investigating
       Committee found t h a t - falsified the report of the coding procedure he used, and found
       that he recklessly or intentionally falsified the results of~ reporting that 16 out of
       16 subjects responded more to t h e - than the~ stimuli even though the
       actual result was 13 out of 16; both are statistically significant. With respect to Experiment 3, the
       Investigating Committee found t h a - misrepresented the protocol and that he falsified
       the results to         the hypothesis he sought to present. Details of the methods and coding were
       corrected                 and his co-authors before publishing the final version of the manuscript
       in the  .v.........
   12. Finding #5: -falsified the research record, misrepresented the results for one
       experimental condition, and misrepresented the                                                  for one of
       ..v,,P.ri:m ..,ntC! report€~d in an article entitled,
                                                       published in
                                      ....-A ..... t .. that 31 out

                                         condition despite the                          video of the ~xperiment demonstrates
                                                         approached the box in this condition. Although both results are
                                                .....u,luu•uu~•~ found that the misrepresentation strengthened the result....
                                                                  the fact that there was an absence of videos for the
                                                                     COIIlOJI[JOJlS in            and an          of most
                                                                       statements to journal reviewers that all trials·were
                                                                                    failure to maintain records/videotapes
                                                                        .o.u•u"''l5"• with complete videotaped records, an~


   13. Finding #6:                   falsified and/or fabricated results based on the absence of original raw
       data for one P.YriP.ri:mP.t1t and falsified the                       for another            in an article
       entitled,                                                                                published in
       -                                                                                          experimental

                                                              2
VOLUNTARY EXCLUSION AGREEMENT BETWEEN NSF A~_ _ _ _ _J_a_n_u_ary......._l_0_13_


      results for one of the three experiments (the                  data) had been recorded in field notes
      prepared at the time of the trials, and that those notes were preserved. As a result o f -
      failure to preserve the underlying data, the Investigat~ttee found that he was reckless in ·
      permitting the publication of the article. In additio~. . . . . falsely represented the reliability
      ofthe coding ofthe                 data ~orting•% of the trials as videotaped, when only
      I% were                                  -replicate~ fmdings, with ·
      compl~                                published them in~acknowledgedNSF
      award~ for support.

   14. Finding #7: - f a l s i f i e d the research record in connection with an unpublished-
      experiment carried out with                on                  -           igriored generally
      accepted practices for                  response           protecting against observer bias.
      The examples o~anges where the video contradicts the noted justification support the
      conclusion that . . . . . was not coding blind to condition, but was in fact focused on
      condition. His coding, which was inconsistent with the protocol, changed the result from
      insignificant to significant.

   15. Finding #8: In connection witli a research project on                    -falsified the
      research record and methods and conditions used for                         in successive revisions
      of. a manuscript t o - · The Investigating Committee found t h a t - falsified the
      research record by including an extra row of data to .generate an incorrect p value, though both the
      corrected and modified results were statistically significant. The Investigating Committee also
      found t h a t - falsified data by presenting results in such a way thatmost reasonable
      readers would understand them to represent something other than what they are. All data and
      statistics were corrected before the final draft was submitted and ultimately accepted for
      publication.

   16. Based on the findings outlined in the Committee R e p o r t , - acknowledges that NSF has
      sufficient evidence to demonstrate that he engaged in research misconduct in violation of NSF
      regulations. In lieu of NSF making a formal finding of research misconduct,- has
      voluntarily agreed to take the actions specified herein to demonstrate to NSF his commitment to
      ensuring that he does not commit research misconduct in the future.


NOW, THEREFORE, the parties agree as follows:

ID. Terms and Conditions

   1. Voluntary Exclusion: Effective upon the execution of this Agreement,- agrees to a
       voluntary exclusion for eighteen months. ~er understands that, during this period of
     · voluntary exclusion, he will be:

           a. Precluded from receiving Federal financial and non-financial assistance and benefrts
              under non-procurement Federal programs ~d activities;

           b. Prohibited from receiving any Federal contractS or approved subcontracts under the
              Federal Acquisition Regulation; and

           c. Barred from having supervisory responsibility, primary management, substantive control
              over, or critical influence ~n, a grant, contract, or cooperative agreement with any agency
              of the Executive Branch ofthe Federal Government.

                                                   3
VOLUNTARY EXCLUSION AGREEMENT BETWEEN NSF A N D - ' - - - ' - - - - - ·_J_a_n_u_ary-=-2_0_1_3




   2. Completion of Training: - w i l l certify to NSF's Office of Inspector General ("OIG")
      the completion of a responsible conduct of research training program and provide' documentation.
      of the program's content within one year of the execution of the Agreement. The instruc~ion
      should be in an interactive format (e.g., an instructor-led course) and specifically include a
      discussion of data management practices, falsification and fabrication.

   3.                  ~P!J~@!!!!:      For a period of three years following the voluntary exclusion
                                       certifications to NSF's OIG that any proposaJ or report submitted
                                     contributed does not contain plagiarized, falsified, or fabricated
        material.

   4. Submission of Assurances: For a period of three years followiQg the voluntary exclusion period,
      ~ranees from a responsible official of his employer.to NSF's OIG that
      any proposal or report submitted to NSF to w h i c h - contributed does not contain
      plagiarized, falsified, or fabricated material.

   5.                                 ~~~~-·                    For a period of three years following the voluntary
                                             will submit to NSF's OlGa detailed data management plan for each
                                 .......,.. ~u........ as PI, co-PI, senior personnel, consultant, or subawardee.   .

   6. Reviewer Prohibition: For a period of three years following the voluntary exclusion period,.
      ~ed from serving as a peer reviewer, advisor, or consultant for NSF.

   7. .Waiver and Release: - h e r e b y waives all claims, demands, or requests for monies of
       any kind or of whatever nature that he may have or may develop in the future arising from,
       related to, or in connection with, any investigation, or as a result of administrative or judicial
       proceedings, or request for any other relief in law or in equity, or in any other forum be it judicial
       or administrative in nature, aril;ling out of or relating to the facts that gave rise to this Agreement.
      - h e r e b y releases NSF, its instrumentalities, agents, and employees in their official and
       personal capacities, of any and all liability or claims arising out of or related to the facts that gave
       rise to this Agreement.

   8. Representations: ~er represents that all information supplied to NSF by him or his
      authorized representative during the course of disc~ceding this Agreement is true and
      accurate to the best of his information and belief. ~ understands that this Agreement is
      executed on behalf ofNSF in reliance upon the truth and accuracy of all such representations.

   9. No Suspension or Debarment: Provided that the terms and conditions of this Agreement are
      faith~d, NSF will not suspend or d e b a r - . NSF's decision not to suspend or
      deb~ based upon the conduct as described in this Agreement shall not restrict NSF or
      any other agency of the Government from mstituting admmtstrative actions, mcluding, without
      limitation, suspension or debarment should information indicating the propriety of such action
      come to the attention of NSF or such other agency, or additional information con~facts
      at issue here is discovered by the Government, which facts. were nOt disclosed b~ or
      by the exercise of reasonable diligence could.not have been discovered by the Government as of .
      the date of this Agreement.

    10. Survival of Cause: The causes for debarment survive the execution of this Agreement.



                                                        4
VOLUNTARY EXCLUSION AGREEMENT BETWEEN NSF AND _ _ _ _ _ _J_a_n_u_ary....:.-2:-0_13_


   11. Breach: Breach of this agreement b y - constitutes a separate cause for suspension or
       debarment o~. NSF r;nay initiate debarment proceedings as a result of such a breach.

   12. Entire Agreement: This agreement constitutes the entire agreement between the parties and
      supersedes all prior agreements and understandings, whether oral or written, related to the subject
      matter hereof. It can be modified only by a written document signed by both parties.

   13. Authority of the United States: The provisions of the Agreement in no way alter or diminish
      the rights and responsibilities of the United States to carry out its lawful functions in any proper
      manner.

   14. Severability: In the event that one or more of the provisions contained in this agreeme~t shall
      for any reason be held to be invalid, illegal, or unenforc~able in any respect, such invalidity,
      illegality, or unenforceability shall not affect other provisions of this Agreement.

   15. Non-Precedential: This Agreement does not have any precedential effect and shall not be used,
      cited or relied upon in future administrative or jucUcial proceedings, unless necessary to
      demonstrate that a breach of the Agreement occurred.

   16. Paragraph Headings: The paragraph headings in this Agreement are inserted for reference and
      shall not affect the meaning or interpretation of this Agreement.

   17. Counterparts: This Agreement may be executed in one or more counterparts, each of which
      shall be an original, but all of which taken together, shall constitute one and the same agreement.

   18. Notices: Any notices or information required by this Agreement shall be in writing and mailed
       by registered or certified mail, postage prepaid, to NSF as follows:

           a. For all information that must be sent to OIG:

               Assistant Inspector General for Investigations
               National Science Foundation .
               4201 Wilson Boulevard; Suit~ ll-705
               Arlington, VA 22230

           b. For all other information:

               Eric S. Gold
               Assistant General Counsel
               National Science Foundation
               4201 Wilson Blvd., Rm. 1265
               Arlington, VA 22230

   19. Modification: This Agreement may be amended or moditied only by a written document signed
       by all parties.

   20. Voluntary Nature of This Agreement:- represents that this Agreement is freely and
       voluntarily entered into without any degree of duress or co~pulsion whatsoever.




                                                    5
VOLUNTARYExCLUSlON AGREEMENTBJ~;TWEENNSF AND _ _ _ _ _ _J;:.:an=ua:;;;;:ry~20~1;;;..3


IV. Certification: By signature hereto,- certifies that h1' understands the provisions of 18
    U.S.C. 1001 are appficable to the statement and representations contained herein.


V. Signatures:




                                                                          Date
       National Science Foundation



                                                                             1-2"3-\3
                                                                          Date




                                                6
